MEMORANDUM

Date: December 27, 1999




       On September 2 1, 1999, OIG recieved information regarding the attempted use of
the government mail for personal business. Mailroom personnel observed two pieces of




         On October 18, 1999,        as interviewed and provided a statement under
oath. m l a i r n e d that she              the mail but had attached two postage
stamps to each envelop with paperclips so that the'mailroom could attach the appropriate
postage. The mailroom employees claimed that they did not find any stamps attached to
the letters.

        On October 25, 1999, the US Attorney's Office declined prosecution. The
Division of Adminstrative Services (DAS) who supervise the mailroom was notified of
this incident an4 agreed to monitor future postage fro
               k'               ,f..a ; - ' -                                          s'
Conclusions

       This case is closed.
